La
|

2311 Douglas Street CA

Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831

KLE

Le ga 1 Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 No, 19-123

SHARONELL FULTON, ET AL.
Petitioners,

v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE COMMONWEALTH OF
PENNSYLVANIA IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been
served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
GREGORY G. SCHWAB JOSH SHAPIRO
General Counsel Attorney General

DORIS M. LEISCH

Deputy General Counsel
GOVERNOR’S OFFICE OF
GENERAL COUNSEL

333 Market Street, 17th Floor
Harrisburg, PA 17101

KENNETH J. SERAFIN

Chief Counsel

PENNSYLVANIA DEPARTMENT OF
HUMAN SERVICES

7th & Forster Streets

3rd Floor West

Harrisburg, PA 17120

Subscribed and sworn to before me this 20th day of August, 2020.

COMMONWEALTH OF PENNSYLVANIA.
MICHAEL J. FISCHER*

Chief Deputy Attorney General
JACOB B. BOYER

Deputy Attorney General

OFFICE OF ATTORNEY GENERAL
1600 Arch Street, Suite 300
Philadelphia, PA 19103

(215) 560-2171
mfischer@attorneygeneral.gov
*Counsel of Record

I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

wooo Oudiw-h. Ghhe

 

Notary Public

Affiant 40017
Service List

Mark Leonard Rienzi

The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioners

Leslie Cooper

American Civil Liberties Union

125 Broad Street

New York, NY 10004

(212) 519-7815

lcooper@aclu.org

Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

Neal Kumar Katyal

Hogan Lovells US LLP

555 Thirteenth St., N.W.

Washington, DC 20004

(202) 637-5528

neal.katyal@hoganlovells.com

Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
